\0\. iw
No.

In The

Supreme (Emxxi oi i\\t
James T. Ryan,

States

petitioner

V.

Department of Defense
PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT

PETITION FOR WRIT OF CERTIORARI
James Ryan
pro se
306 Guilford Court
Bel Air, Maryland 21015
James.ryanl970@outlook. com
917 576 U32U

FILED
JUL 26 2019
SUPREMEFClOURTLUfc;K

' A-:-.'.

CURRY & TAYLOR ♦ 202-350-9073

I

QUESTION(S) PRESENTED
James Ryan, the Petitioner, request this Petition
for Writ of Certiorari be granted because the personnel
action violated his constitutional right to due process, as
well as the Whistleblower Protection Act (WPA).
Petitioner was not provided with notice and opportunity
to respond to a specification within a personnel action
that removed him from employment as a police officer in
the federal service. Additionally, the Merit Systems
Protection Board (MSPB) Administrative Judge did not
analyze whether the Agency would have taken the
personnel action absent disclosures protected by the
WPA. The case should have been remanded by the Court
of Appeals for the Federal Circuit (CAFC) to the MSPB.
1) Can the government sustain a specification without
giving the employee notice?
2) Can the government overcome a whistleblower defense
without an objective test?

\ •

II

TABLE OF CONTENTS
Page
QUESTION(S) PRESENTED

i

Table of Authorities...

m

Opinions Below.

l

Jurisdiction

l

Relevant Provisions Involved

.2

Statement

3

Reasons for Granting the Petition

6

Conclusion

10

Appendix
Opinion of the U. S. Court of Appeals
Initial Decision.........................>.........
Order Denying Rehearing..................
Petition for Rehearing..................... .

la
6a
15a
15a

Ill

TABLE OF AUTHORITIES
Page
Cases
Cleveland Board of Education v.
LOUDERMILL, 470 U.S. 532 (1985)..................
Gentile v. State Bar Nevada, 501 U.S. 1030
Lachance v. Erickson, 522 U.S. 262 (1998)....
Paul v. Davis, 424 U.S. 693 (1976)....................

3,6
6
6
6

Statutes
28 U. S. C. § 1254(1)

2

)

\

1
James Ryan, a former Pentagon Force
Protection Agency police officer, respectfully petitions
this court for a writ of certiorari to review an opinion of
the Court of Appeals for the Federal Circuit.
OPINIONS BELOW
The order by the Court of Appeals for the
Federal Circuit denying Petitioners combination
petition for panel rehearing, petition for rehearing en
banc, decided by the Honorable Prost, Chief Judge,
Newman, Lourie, Bryson1, Dyk, Moore, O’Malley,
Reyna, Wallach, Taranto, Chen, Hughes, and Stoll,
Circuit Judges, dated April 29, 2019 is not published.
The disposition by the Court of Appeals for the
Federal Circuit affirming the Merit Systems Protection
Board’s decision to sustain Petitioners removal from
the federal service, decided by the Honorable Lourie,
Bryson, and Moore, Circuit Judges dated February 13,
2019 is not published. Per Curiam.
The Merit Systems Protection Board’s decision
to sustain the Pentagon Force Protection Agency’s
removal action, issued by the Honorable Andrew M.
Dunnaville, Administrative Judge, dated November 15,
2017 is not published.
JURISDICTION
The Court of Appeals for the Federal Circuit
denied Petitioners combination petition for panel
rehearing, petition for rehearing en banc on April 29,
1 Circuit Judge Bryson participated only in the decision of the
petition for panel rehearing.

2

2019. Jurisdiction of this Court is invoked under 28 U.
S. C. § 1254(1).
RELEVANT PROVISIONS INVOLVED
Amendment V
No person shall be held to answer for a capital,
or otherwise infamous crime, unless on a
presentment or indictment of a grand jury,
except in cases arising in the land or naval
forces, or in the militia, when in actual service in
time of war or public danger; nor shall any
person be subject for the same offense to be
twice put in jeopardy of life or limb; nor shall be
compelled in any criminal case to be a witness
against himself, nor be deprived of life, liberty,
or property, without due process of law; nor shall
private property be taken for public use, without
just compensation.
5 U.S. Code § 2302(b)(8)(A)(i)(ii).
Any employee who has authority to take, direct
others to take, recommend, or approve any
personnel action, shall not, with respect to such
authority take or fail to take, or threaten to take
or fail to take, a personnel action with respect to
any employee or
applicant
for employment
because of any disclosure of information by
an employee or applicant which the employee or
applicant reasonably believes evidences any
violation of any law, rule, or regulation, or gross
mismanagement, a gross waste of funds, an
abuse of authority, or a substantial and specific

3

danger to public health or safety, if such
disclosure is not specifically prohibited by law
and if such information is not specifically
required by Executive order to be kept secret in
the interest of national defense or the conduct of
foreign affairs.
STATEMENT
This Court has held a public employee has a
property interest in their employment. Subsequently,
the employee has a right to due process during a
removal action. The basis for public employee due
process rights is Cleveland Board of Education v.
Loudermill, 470 U.S. 532 (1985).
The Constitutional requirements of Loudermill
mandate an Agency to present the employee with the
information relied on in taking an adverse personnel
action and give the employee the 'opportunity to
respond.
This case presents the question of whether the
government can sustain an adverse action without
notice.
Additionally, the Whistleblower Protection Act
protects federal employees who discloses a violation of
law, rule, or regulation from retaliation. An agency
violates the act if it takes a personnel action because of
a disclosure.
This case presents the question whether and
agency can overcome whistleblower defense based on
the deciding official’s subjective denial of retaliation.

4
Facts
Petitioner obtained SV’s annual rating of record
lawfully subsequent to an EEO complaint. The Agency
presented it within the report of investigation (ROI) as
comparator evidence to mitigate Petitioner’s complaint.
Petitioner identified it as being falsified by the
Sergeant. Sergeant inflated SV’s rating of record with
false acts of performance.
This supported SV’s
exceptional performance rating and Sergeants
recommendation SV receive a cash bonus for
performance.
Petitioner had disclosed to his chain of command
several times that SV allowed his post to become a
location for unauthorized loitering and allowed the
entrance to his post to be chocked open which
circumvented the common access card-controlled door
locks. Petitioner also disclosed Sergeant participated in
the misconduct and it was continuous through the
rating period. These- assertions are undisputed by
anyone with firsthand knowledge.
After obtaining SV’s falsified rating of record,
Petitioner reported to his chain of command Sergeant
fraudulently inflated SV’s rating of record and provided
him with a cash bonus in exchange for allowing the post
to deteriorate into a location for unauthorized activity.
Petitioner also provided the objective facts that
supported the conclusory statement. These assertions
are undisputed by anyone with firsthand knowledge.
Appeal
Shortly after, Petitioner was removed from his
position for numerous charges and specifications. On
appeal, the MSPB sustained one specification of lack of

5

candor, one specification of conduct unbecoming, and
one specification of misuse of government computer, as
well as the penalty.
The agreed upon issue for hearing giving rise to
the lack of candor specification at issue was, Petitioners
assertion Sergeant inflated SV’s rating of record. The
deciding official testified at hearing he sustained the
lack of candor specification based on ex-parte
information and his conclusion Petitioner could not
prove SV’s rating was fraudulently inflated. In closing
arguments, Petitioner raised a due process argument.
The Agency conceded the deciding official likely
violated Petitioner’s due process rights by using ex
parte information to sustain one lack of candor
specification.
The MSPB AJ noted in his decision Petitioner
may have believed SV’s rating was inflated, but
sustained the lack of candor specification because there
was no information in the record to support the position
Sergeant provided SV with the cash bonus in exchange
for allowing the post to deteriorate.
The AJ erroneously categorized the deciding
official’s personal knowledge as cumulative and noted
the deciding official’s subjective assertion he would
have sustained the lack of candor specification anyway
as the reason for denying Petitioner his right to due
process.
In affirming the MSPB decision, the CAFC held
since Petitioner made a statement and failed to provide
evidence to support it, he lacked candor. CFCA noted
the deciding official’s subjective assertion he would
have sustained lack of candor absent ex parte
information as a basis to deny Petitioner due process.
In consideration of Petitioners whistleblower
defense, both the MSPB and the CAFC accepted the

6

deciding official subjective assertion he would have
sustained the removal absent the protected disclosures.
The Agency was not held to an objective test.
The CAFC failed to require an objective test to
analyze Petitioners affirmative defenses.
REASONS FOR GRANTING THE PETITION
The United States Supreme Court should grant the
Writ of Certiorari because Petitioner has an
absolute right to due process.
This Court has held once federal employees are
provided a property interest in their employment theycan only be removed for cause. See Cleveland Board of
Education v. Loudermill, 470 U.S. 532 (1985); see also
Lachance v. Erickson, 522 U.S. 262 (1998).
Subsequently, they have a right to notice and a
meaningful opportunity to respond prior to an adverse
action. Loudermill, 470 U.S. 532. In the case of an
adverse employment action, combined with the
“reputational injury” to the employee, a vague
regulation will not satisfy the Constitutional notice
requirement. See Gentile v. State Bar Nevada, 501 U.S.
1030; See also Paul v. Davis, 424 U.S. 693 (1976)
The Agency notified Petitioner he lacked candor
for asserting Sergeant fraudulently inflated SV’s
annual rating of record without being able to prove it.
Petitioner proved it at hearing.
Petitioner was not notified of the basis to sustain
his removal.
The deciding official unequivocally testified he
sustained a lack of candor charge solely based on ex

7

parte knowledge prior to Petitioners response; he later
testified it was only one of two factors relied on. The ex
parte knowledge was the only firsthand information
that purported to prove Petitioners statement
incorrect. The deciding official also testified he relied on
that guilty finding in sustaining a separate lack of
candor specification; the specification at issue here. The
deciding official admitted he did not notify Petitioner
prior to sustaining the adverse action.
The MSPB sustained Petitioners removal
because there was no evidence in the record to support:
the cash bonus was provided by Sergeant to SV in
exchange for allowing his post to deteriorate to an
unsafe condition,
This is an entirely different
specification than the specification brought by the
Agency. Had Petitioner been notified, he could have
obtained evidence through discovery and properly
responded. Notwithstanding, there is no evidence in
the record to disprove Petitioners sworn first-hand
account of events. Neither Sergeant nor SV were
called to testify that Petitioners assertions were
incorrect. There is no evidence in the record indicating
Petitioner did not believe his statement to be correct.
In dismissing Petitioners due process argument,
both the MSPB and CAFC noted the deciding official’s
subjective assertion he would have sustained lack of
candor absent the ex parte information. Once deciding
official admits he relied on ex parte information a
subjective statement asserting new and material
information had only cumulative effects should not
overcome due process. A proper test should objectively
determine if the information was the type that would
influence a deciding official. Otherwise due process
becomes subject to the harmful error test.

8
CAFC held the MSPB decision inferred
Petitioner accused Sergeant an SV of a quid pro quo
criminal act. There is no information in the record to
support this inference,
Petitioner unequivocally
requested a criminal investigation of Sergeant, not SV.
The court further held Petitioner lacked candor for
failing to offer any evidence to support a statement.
The MSPB decision to sustain was not based on
the Agency’s specification. Sustaining a lack of candor
charge based on a statement not shown to be incorrect,
and without evidence the employee believes it to be
incorrect, merely because the statement is conclusory is
too vague. Additionally, sustaining the lack of candor
charge obliterated Petitioners reputation as a 19-year
law enforcement officer; all his career experience is
destroyed. Law enforcement employment is now
impossible. Subsequently, Petitioner was not afforded
Thus,
notice as required by the Constitution.
Petitioners fifth amendment due process rights were
violated.
The lack of candor specification at issue controls
the outcome of Petitioner’s removal as well as future
employment. The reversal of this specification will
require a remand for penalty analysis because the
deciding official provided inconsistent testimony about
its effect, but ultimately and unequivocally testified he
did not know if he would sustain the removal absent
lack of candor. Reversal of this specification allows
Petitioner to work elsewhere as a law enforcement
officer.

9
The United States Supreme Court should grant the
Writ of Certiorari because the action violated the
Whistleblower Protection Act 5 U.S.
Code §*2302(b)(8)(A)(i)(ii).
Petitioner disclosed to his chain of command
objective facts to show Sergeant fraudulently inflated a
rating of record with false acts of performance.
Petitioner disclosed to his chain of command a
Pentagon facility door locking device had been
tampered with and the door had been chocked open.
Both were reported within a year of Petitioners
removal. Petitioner showed at MSPB proceedings the
Agency, as well as the proposing and deciding officials
had knowledge.
The MSPB AJ failed to analyze whether the
Agency would have taken the action absent the
disclosures. The AJ accepted the deciding official’s
subjective denial in denying Petitioners whistleblower
defense.
CAFC held Petitioners conclusory statement
was not protected, thus the whistleblower defense fails.
The correct test is to determine whether the Agency
would have taken the action on the conclusory
statement, and other specifications, absent the
protected disclosures.
Since the Agency was not required to objectively
show they would have taken the action against
Petitioner absent the disclosures, the action violated
the whistleblower protection act.
Petitioner pleas with this Court to grant the
Writ due to the public policy issues of due process and
whistleblower protection. Without an objective test for
due process and whistleblowing an agency’s compliance
with the law becomes arbitrary.

10
CONCLUSION
For the foregoing reasons, . Petitioner
respectfully request this Honorable Court grant the
Writ of Certiorari or in the alternative remand to the
MSPB for objective analysis to ascertain if Petitioner
made a statement he knew to be incorrect, and to
ascertain if the Agency would have taken the action
absent whistleblowing.
Respectfully submitted,
James Ryan
306 Guilford Court
Bel Air, Maryland 21015
917 576 4324
James.ryanl970@outlook.com

